No. 20-305
IN THE

'upreme Court of the Eittiteb eptatai
PLANNED PARENTHOOD CENTER FOR CHOICE, et al.,
Petitioners,
v.
GREG ABBOTT, IN HIS OFFICIAL CAPACITY AS GOVERNOR
OF TEXAS, et al.,
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

BRIEF FOR AMICI CURIAE
CONSTITUTIONAL AND HEALTH LAW
SCHOLARS IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,995 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 9, 2020.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

